No.

In The
Supreme Court Of The United States

Robert Arthur Moses - Petitioner
v
The State Df Texas - Respondent
□n Petition for Urit of Certiorari to the Texas Court
of Criminal Appeals

PETITION FOR LJRIT OF CERTIORARI

Robert Arthur Moses, pro se
TDCO # 2101342
McConnell Unit
3001 S. Emily Dr.
Beeville, Texas 78102
No Phone

(i)

QUESTI0N5 PRESENTED
Question 1.
Whether the State of Texas and the 219th District Court,
Collin County, Texas, by the failure to magistrate/prompt
presentment, failure to appoint counsel, denial of the Petioner's
RIGHT to an examining trial and failure to adjudicate the
Petitioner's PreTrial Writ Q'f Habeas Corpus 11.08 caused
the State and all courts to lack jurisdiction to proceed against
the Petitoner?

Question 2.
Whether the State's withholding of the victim's Certificate
of Death denied the jury being compelled by law to render a
verdict of " Not Guilty? "

(m)

1

TABLE OF CONTENTS
Page(s)
Cover Page

i

Questions Presented

ii

Table of Contents

iii

Table of Authorities

Vi

□pinions-State

1

Jurisdiction .

1

Constitutional-Statutory Provisions

3

Statement of Case

4

Reasons for Granting Petition

5

INTRO

5

Question 1

5

a) Failure to Magistrate

5

b) Failure to Appoint Counsel

11

c) Denial of an Examining Trial

12

d) Denial of Writ

1 3:
15

Question 2
Withholding of Certificate of Death

15

Conclusion

1B

Prayer

22

Proof of Service

23

Certification

23

Declaration

24

Appendix (apx)

24

Appendix Listings

\v
iii

1'sb

Appendix Listings

Date(s)
6/22/20

(apx)
Page(s)

Emergency Motion

A01 -01

Docket Sheet

A02-01

6/22/20

Motion to Compel

A03-01

8/4/20

Response in Opposition

A04-01

8/6/20

Court Order

A05-01

8/17/20

Notice of Appeal

A06-01

Docketing Statement

A07-01

9/29/20

Memorandum Opinion

A08-01

10/9/20

Reconsideration En;Banc

A09-01

10/28/20

En Banc denied

A10-01

11/24/20

PDR

A11-01

11/24/20

Motion immediate release

A12-02

12/15/20

Reconsideration En Banc

A13-01

1 2/31/20

Denial reconsideration

A14-01

1/13/21

PDR Refused

A15-01

1/1 8/21

Motion Default Judgement

A1 6-01

1/21/21

Correspondence TCCA

A1 7-01

1/25/21

Rehearing PDR

A1 8-01

2/4/21

Rehearing PDR rejected

A19-01

2/8/21

Motion of Notice

A20-01

2/15/21

Letter to District Clerk

A21 -01

2/24/21

Letter from District Clerk

A22-01

.. 8/17/20

iV

/,

Appendix IListings
(continued)
Page(s)

Date(s)
3/3/21

Response in Opposition

A23-01

3/9/21

Letter from TCCA Clerk

A24-01

3/17/21

TCCA denie " the motion "

A25-01

Motion to Dismiss

A26-01

Motion to Set Aside/Quash

A27-012

Writ of Habeas Corpus

A28-01

Affidavit

A29-01

Indictment

A30-01

Order Amend

A 31:-01

Indictment Amended

A32-01

Autopsy

A33-01

Certificate of Death

A34-01

Oohnnie Corley Petition

A 3 5 - 01

\l

TABLE DF AUTHORITIES
CASES

Page(s)

Brady v Maryland S3 S.Ct. 1194

17

Collier v State 959 SU 2d 621, 625-26

5,13

Corley v US

6,7,19

129FS. Ct. 173

Ex parte Armstrong

10

Ex parte Coldwell

10

Ex parte Eduards No. 05-03-00556 CR Lexis 7071

8

Ex parte Sandoval

10

Ex parte Seidel
Garcia v Dial

39 SLJ 3d 221

9,1 0,11 ,20

596 SU 2d 527

10

Illinois v Gates 462 US 213, 232

1

Kull v State No. 05-00-00196 CR

9

Mallory v US 77 S.Ct. 1356

7,19

McNabb v US 63 S.Ct. 608

6,7,19

-.Moran v Burbine 106 S.Ct. 1135

5

Philos Techs v Philos & D. Inc.
645 F3d 851 (7th Cir)

10

Riverside v McLaughlin

7

111 S.Ct. 1661

Smith v O'Grady 61 S.Ct. 572

3

Sutton v State 41 Texas 51 3 (1 874)

2

Thompson v Louisville 80 St Ct. 624

2

US v Cronic

12

104 S.Ct. 2039

Uachon v New Hampshire 94 S.Ct. 664

Vlf

2

Statutes and Rules
Page(s)
Texas Cades and Criminal Procedures (TCCP)
1 .051

Right ta representation by counsel

11

1 .08

Habeas Corpus

14

11 .16

Urit may issue without motion

14

15.17

Duties of arresting office and Magistrate

16.01

Examining Trial

12

38.04

Jury are judges of facts

17

38.32

Presumption of Death

17

39.14

Discovery

16

6,13

Federal
6

FRCP 5(a)

Supreme Court

Rules

2

Rule 40

VI It

Opinions-State Case
The State of Texas Provided it's opinion to the Petitioners,
motion in it's Response in Opposition (app p. A04-01 ) .
The District Court's Opinion was in it's dismissal (apx p.
A05-01 ).
The Court of Appeals

5th District of Texas at Dallas provided

it's opinion in it's Memorandum Opinion

(apx p A08-03).

The Texas Court of Criminal Appeals (TCCA) refused the
Petitioner's PDR (apx p. A15-01) providing no opinion.
The TCCA rejected the Petitioner's Motion For Rehearing
(apx p.

'A19-01) providing no opinion, to the Petitioner's

argument.
JURISDICTION
The Petitioner presents, herein, numerous meritorious claims
of violations of the Petitioner's Constitutional Right to Due
Process under the 14th Amendment, as well as, possible violations
of the 4th and 6th Amendments.
Illinois v. Gates

462, US 213, 232 (1996)

" Certiorari jurisdiction over decisions from state
courts derives from 28 USC § 1257, which provides that
final judgements of decrees, by the highest court of
a State in which a decision could be had, maybe re­
viewed by the Supreme Court as follows:
...(3) By "Writ of Certiorari ...where any title, right,
privilege or immunity is specially set up or claimed
under the constitution. i ii
The Petitioner would offer that the refusal' of the TCCA
to respond to the Petitioner's valid legal argument by the
"Rule of Law" is a " final judgement " which this Court may review

1

by Writ of Certiorari.
V/achon v. New Hampshire

94 S. Ct. 664,

" 1. Under Rule 40(1)(d)(2) of the Supreme Court Rules
which provides that questions not presented according
to the specified requirements will be disregarded
except as the Court, at it's option may notice a Plain
Error not so presented, the Supreme Court's discretion
extends to review of the Trial Court Recored."
The Petitioner would offer that the violations presented
herein are "plain error" which this court, " at it's option"
and by it's " discretion," should review.
V/achon v. New Hampshire,
"the court summarily reversed a state criminal conviction
on the ground, not raised in state court or here,
that it had been obtained in violation of the Due
Process Clause of the 14th Amendment."
The Petitioner would offer that he did raise numerous merit­
orious claims which violated Due Process and should be reviewed
by this Court.
"

But in a case affecting the life or liberty of a Citizen
we feel bound to see at least that by the facts proved
the court had jurisdiction of the case." Sutton v. State
41 Tex 513(1874) " the policy is sound and we adhere
to it and hold that we have both the jurisdiction and
the duty to reverse these void convictions even though
no point of error has been assigned on this ground."

The Petitioner urges this court to hold, that this court
has jurisdiction and the duty to review this petition, as this
is a case affecting the " liberty of a citizen."
'■/

in Thompson v. Louisville 80 S. Ct. 624,
» this court reviewed and granted Certiorari for
loitering and disorderly conduct stating, on Certiorari
the US Supreme Court Unanimously reversed the conviction.

2

.

In an opinion by Black, 0 • J it was held that it is a
Violation of Due Process to convict a man without
evidence of his guilt, as was done in the present case."
" 1 . Although the fines imposed by a state court judgement
are small, the Supreme Court of the US will grant
Certiorari to review the judgement where Due Process questions
presented are substantial."
The Petitioner would offer that the questions presented are
extremely substantial and violate due process.
Smith v O'Grady 61 S.Ct. 572
" Appeal §805 state court decisions as involving Federal
questions." "2. A denial by a state court of writ
of habeas corpus to one who claims that the judgement
under which he is imprisoned was rendered in
violation of his constitutional rights to reviewable
by the Supreme Court of the US as necessarily
involving a Federal question."
The petitioner would offer that the failure to examine a
pretrial Writ Of Habeas Corpus 11.08 involves a "Federal Question"
which this court should review.
The -Petitoner presents that this court has jurisdiction to
review and grant this petition for Urit of Certiorari for any
or all of these reasons.
PDR refused 01/13/2021.

Motion Rehearing rejected 02/04/2021.

This Petition was timely submitted and is now timely resubmitted.
Constitutional and Statutory Provisions
The Petitioner would offer that the questions presented raise the
following Constitutional and Statutory Provisions
1 .

14th Amendment-numerous due process violations

2.

4th Amendment-probable cause violations

3.

6th Amendment- right to counsel violations

4.

TCCP Art. 1 .08-right to pretrial Writ of Habeas Corpus

5.

TCCP Art. 1.051-right to counsel violation

3

6.

TCCP Art. 15.17-Right to magistration and probable
cause determination.

7.

TCCP Art. 16.01-right to examining trial BEFORE indict­
ment

B.

TCCP Art. 39.14- right to excupatory evidence.
STATEMENT OF CASE

Arrested 2/26/15
Indictment 5/26/15
Bury Trial 10/26/15-11/3/16 Plea-not guilty

Jury Verdict_Guilty
Punishment-Life
Notice of Appeal 11/23/16
Motion Neu Trial 11/23/16
Appellant Brief
Appelle Brief

9/25/17
1/26/1 B

Appellant Reply Brief
Oral Arguments

3/6/1B

4/1 8/1 8

Memorandum Opinion B/23/1B
PDR Filed 11/16/18;

Affirming Conviction

Refused 1 2/1 9/1 B

Motion Rehearing filed and denied 1/22/19
Mandate issued

1/24/19

Emergency Motion 5/17/20,
Response in Opposition
Court Order

8/6/20,

Motion to Compel 6/22/20
8/4/20

Motion Dismissed

Notice of Appeal and Docketing Statement 8/17/20
Memorandum Opinion

9/20/20

Reconsideration, En Banc 10/9/20, Denied 10/20/20
PDR filed 11/24/20, Refused 1/13/21
Motion Rehearing PDR, 1/25/21, Rejected 2/4/21

4

REASONS FOR GRANTING PETITION
INTRO:
Every citizen is GUARANTEED certain rights by the U.S.
Constitution, as well as, by state and federal statues.
A right, guaranteed, by the U.S. Constitution or by State
or Federal Statue CANNOT be forfeited, denied or withheld from
a person.

A right can only be waived by the person.

Uere a person to come to court without counsel, the court
would or should determine if the person intends to waive, on the
record, the RIGHT to counsel.
The State or Court bears the burden to establish that such
waiver was " made with a full awareness of both the nature of
the right being abandoned and the consequences of the decision
to abandon it. " Moranv. Burbine 106 S.Ct. 1135.
Collier v. State 959 S. Id. 2d 621, 625-26 (Tex Crim App 1 997).
The decision to waive counsel, " to be constitutionally
effective, must be made;
(1 ) 6omof»fcon%ly ,
(2) knowihgly-and intelligently, and
(3) voluntarily . "
]■!

The Petitioner would offer that any and all rights guaranteed

cannot be forfeited, denied, or withheld.

Such rights can only

be waived, "(1) competently, (2) knowingly and intelligently, and
(3) voluntarily," in order to be constitutionally effective.
The Petitoner did NOT waive any right,

The State and Courts

denied and withheld rights in violation of due process.
QUESTION 1
A) FAILURE TD MAGISTRATE
5

The Petitioner was arrested on 2/26/2015.

Texas Law under

TCCP Art. 15.17 REQUIRES that a person arrested and in custody
MUST be magistrated within 48 hours of arrest, thereby making
a required determination of probable cause.
The Petitioner was NEVER magistrated.

The Petitoner would

offer that NO magistration presents the same as NO magistrate
made a determination of probable cause, necessary to determine
that the arrest was lawful.

Without probable cause determination

the State and Court lacked jurisdiction to proceed against the
Petitiner.
Federal Rules of Criminal Procedure 5(a)(1)(A) (2007)
provides that "■ a person making an arrest within the
US MUST take the defendant without unnecessary delay
before a magistrate judge... deciding between detention
or release. "
Detention can only occur-with a determination of probable
cause .
" Legislation such as this, requiring that the police
MUST with reasonable promptness show legal cause for
detaining arrested person, constitutes an important
safeguard-not only is assuring protection for the
innocent but also in securing conviction of the
guilty by methods that commend themselves to
a progressive and self confident society. "
McNabb v US 63 S.Ct. 608.

Core.
" One might not e-r-e if the prompt presentment
requirement were just some administrative nicety
but in fact the RULE has always mattered in very
practical ways and still does. As we said, it
stretches back the Common Law when it was i
one of the most important' protections ' against
unlawful arrest.' " Corley v U5 129 S. Ct. 1558
Therefore presentment/magistration MUST make a determination
of probable cause

without which a defendant cannot

proceeded against.

6

be

Riverside

v McLaughlin 111 S.Ct. 1661 " probable cause

determination is a requirement under the 4th Amendment. "
As a matter of Law there!is the constitutional

right to

appear before a magistrate who must determine there is probable
cause and that such arrest is lawful.
Without probable cause the State has no basis and no juris­
diction for proceeding in a case.

There must be original probable

cause determination by a committing magistrate predictated on
the antecedent complaint without which no indictiment is
possible, voiding all proceedings.
In Mallory v US

77 S.Ct. 1356, this court unanimously est-

ablished the legal point of law that a person who is not taken
before a magistrate without unnecessary delay or in Texas,
withing 4B hours of arrest, is from that moment forward
"unlawfully detained."
The State has no jurisdiction to proceed against a person who
is " unlawfully detained" as evidenced by the fact that confes­
sions which are involuntary and obtained while a person is
"unlawfully detained" have been ruled as inadmissible.
In
cases

McNabb, Mallory, Corley and perhaps many, if not most
the person was at some point magistrated.

The Magistration

was the remedy for a person being " unlawfully detained " and
allowed the prosecution to regain jurisdiction over the person
and legally proceed.

Such magistration may have also made a

determination of probable cause.
Without magistration, ALL persons would have continued to be

7

" unlawfully detained " and prosecutors would have lacked
jurisdiction to proceed against them.
By the fact that the Petitioner was never magistrated,
there was never a remedy for the petitioners being " unlawfully
detained " and the State Never regained jurisdiction to proceed
against the Petitoner.
The Indictment cannot be the remedy for the Petitioner being
" unlawfully detained " as there is no probable cause determina­
tion.

This is ?as true as taking a person to trial cannot

be

the remedy for no indictment or for an indictment which is
void.
The Court of Appeals, in it's Memorandum Opinion ( Apx-p,Ao^-ot)
presented Ex parte Edwards

2003, Tex App Lexis 7071.

of Appeals possible reliance on Edwards ismisplaced.

The Court
Edwards

, " remedy for violating Article 15.17's 48-hour magistration
rule is potential suppression of statement of involuntary con­
fessions. "

Thus Edwards does not dispute but further proves

that a person who has not been magistrated is thereafter
" unlawfully detained " and any attempt to proceed against
Edwards would have resulted in a " suppression of statement of
involuntary confessions. "
The Court of Appeals failed to present that Edwards was
magistrated.

The magistration being the remedy for Edwards

being " unlawfully detained"
to be " not released. "

and therefore the reason for Edwards

Had Edwards not been magistrated, he

would have continued to be " unlawfully detained " and the State
would have continued to lack jurisdiction to proceed against him.

B

The Court of Appeals also presented Kull v 5tate

No. 05-00-

001 96 CR, attempting to present that a violation of TCCP Art.
15.17 mas waived " by not raising it in his motion to suppress."
This is therefore, an admission by the Court of Appeals that the
State did violate the Petitoner's Right to Magistration and
Probable Cause Determination.

This ignores that the Petitioner

had a constitutional right to probable cause determination,
without which the State had no jurisdiction to Indict.
This also ignores that the Petitioner did Object, not once,
not twice, but three times.
8/06/2015 (apx p A26-01).

First in his Motion to Dismiss on
Second, in his Motion to Set Aside/

Quash on B/19/2015 (apx p A27-01 ) and then in his pretrial Writ
of Habeas Corpus 11.08 on 09/04/2015 (apx p 28-01).
The District Court and the Court of Appeals ignored such.
They have ignored that the Petitoner's Pretrial Writ of Habeas
Corpus 11.08 was a Running Objection and the Petitioner was not
required to further Object.

The Court and State were required

to adjudicate the PreTrial Writ BEFORE proceeding with any other
action.

This presents as a Constitutional Violation of the

Petitoner's right to habeas corpus.
The Petitoner has not and does not present that actions by
the State and District Court, past the failure to magistrate
were invalid.

The Petitioner presents that all such actions

were " illegal and void."

Ex parte Seidal 39 S.W. 3d 221.

Seidel is a decision by the TCCA, whereby actions that are
not " authorized by law " are " illegal and void. " All such
actions being a " nulility from the beginning. "

9

This is the

" rule of law " by the TCCA ruling in Seidel.

The

JPetitoner

would offer that any and all actions without jurisdiction are
not " authorized by law. 11
In the State and Court of Appeal's Responses, both present
that the Petitoner needed to file an 11.07.

This ignores and

is in conflict with the TCCA decision in Seidel.
In Seidel., the " trial court's dismissal with prejudice "
did occurs and then was void and a nulility by the " rule of
law. "
" State was not required to appeal from trial
court's dismissal with prejudice to bring
subsequent prosecution against appellee as
trial court had no jurisdiction or authority
to dismiss charge against him with prejudice,
meaning it's act was void." Seidel
In Seidel, no court needed to make a determination or appeal
that the trial court had no jurisdiction as such actions were
not

Ui

" Authorized by Laq, " therefore " illegal and void. »

By the fact that all such actions were a nulility, no court
needed to determine such.
"

It is likewise axiomatic, that where there

is no jurisdiction,
the power of the court to
act is as absent as if it DID NOT EXIST,' "
Ex parte Caldwell, supra at 589 " and any order
entered by a court having no jurisdiction is VOID."
E . g . Ex parte Sandoval: supra, Ex parte Armstrong,
supra, quoting Garcia v Dial 596 S.U. 2d 524. 527
(19B0 ) .
" a judgement entered against a defendant over
whom the court had no jurisdiction is VOID,
and no court has the discretion to refuse to vacater
the judgement once it recognizes it's lack of
jurisdiction. " Philos Techs v Philos & D. Inc.
645 F3d 851, 854-bb (7th Cir 2011)

10

Were a person to be arrested, magistrated with a deter­
mination of probable cause, afforded an examining trial,
indicted, taken to trial and convicted, all such actions would
be legal.
Even if the State presented false information to the Grand
Jury, the process would be Legal.
be invalid by the
by a ruling of Law.

" rule of law,"

The Indictiment would NOT
it would become invalid

In such case, it would be necessary to file

an 11.07, thereby presenting the issue that the Indictment was
based on false evidence.

A court would have to rule on the merits

of the argument and thereby rule that the indictment was valid.
This would be by a RULING of Law.
herein, is based on the

The Petitioner's Argument,

" Rule Of Law. "

Under the " rule of law," in Seidel, the failure to magistrate
with no determination of probable cause presents that the State
and Courts lacked jurisdiction to proceed just as proceeding
with NO Indictment causes the State and Courts to lack juris­
diction to take a person to Trial.
B)

Failure to Appoint Counsel
The petitioner was arrested on 02/26/2015.

TCCP Art. 1 .051

RIGHT to representation, " an indigent defendant is entitled
to have an attorney appointed to represent him in anyladversary
judicial proceeding. "
TCCP Art. 1.051 States, appointment of counsel SHALL occur
4

by

"

the end of the first working day after the date on which
the Court of the Court's Designee receives the Defendant's
request for appointment of counsel. "

11

Petitioner was deemed " Eligible " to have counsel appoint­
ed on 03/g2/2015.(apx p. A02-01).

The Docket Sheet, which is

the only Legal Record, shows that counsel was not appointed
until 06/05/2015 (apx p. A02-02).

Any attempt to present that

counsel was appointed prior to 06/05/2015

does NOT legally

exist.
The Petitioner was indicted on 5/26/2015.
before the Court appointed counsel.

Ten(10) days

The.Petitioner would offer

that the State going before the Grand Jury is an
" adversary judicial proceeding."
Thus the Petitioner was denied his RIGHT to counsel during
this

" adversary judicial proceeding. "
U.5. Cronic 104 S. Ct. 2039 (1984),
" this Court has recognized repeatedly
of
all the rights that an accused person has,
the right to be represented by counsel is by
far the MOST pervasive, for it affects his
ability to assert any other rights he may have."
The Petitioner would offer that this failure to appoint

counsel, caused the State to lack jurisdiction to proceed
against the Petitioner until counsel was appointed.

As such,

the Indictment was procured, without jurisdiction and therefore,
NOT

" authorized by law, "

making the indictment, " illegal

and void. "
C)

Denial of Exanang Trial
TCCP Art. 16.01 states,
"

The accused is ANY felony case SHALL have the
RIGHT to an .examining trial Before Indictment. "

12

The Petitioner would offer that any right CanNot be
forfeited, denied or withheld.

A right can only be waived by

the accused, in ’court, on the record and " to be constitution­
ally effective, MUST be made;
(1 )
(2)
(3)

competently,
knowingly and intelligently, and
voluntarily.
"

Collier v State
The Petitioner would offer that the State CANNOT Indict
an accused until the accused has been afforded an examining
trial or waived such right.

Any attempt to Indict a person

prior to an examining trial is without jurisdiction.
The Petitioner has the RIGHT to an Examining Trial prior
to Indictment, which could not be denied, withheld or forfeited
unless the Petitioner had waived such right.

The Petitioner

not only did NOT waive his right to an Examining Trial, he was
denied any knowledge of such right by the State's failure to
magistrate.

D) Denial of Pretrial Writ

On 05/26/2015, the Petitioner was indicted.

On 08/06/2015,

the Petitioner file a Motion To Dismiss (apx p. A26-01).

Such

motion was acknowledged by then presiding Judge the Honorable
Scott 0. Becker, by his initials on the filed motion.
The Petitioner presented that " defendant was never taken
before a magistrate for arrest as required "by TCCP Art. 15.17Duties of arresting officer and magistrate. "

The Petitioner

further presented, " Indictment of defendant was obtained without
13

valid due process. " " No offense, lawfully existed for the
Grand jury to cause Indictment. "
Under TCCP Art. 11.16 Writ may issue Without Motion.
" A judge of the district or county court who has knowledge
that any person illegally confined or restrained in his
liberty within his district or county may if the case be one
within his jurisdiction, issue the Writ of Habeas Corpus Without
any motion being made for the same.

"

Judge Becker, therefore,

having acknowledged the Petitioner's Motion could have and
possibly should have issued a PreTrial Writ Of Habeas Corpus,
"

without any motion.

"

On 08/19/2015, the Petitoner filed a Motion To Set Aside/
Quash Indictment ( apx p. A27-01) which was also acknowledged
by Judge Becker.
On 09/04/2015, the Petitioner filed a Writ Of Habeas Corpus
(apx p. A28-01 ) , a. PreTrial 11 . OB, which was acknowledged by
Judge Becker with his intitials.
" the Defendant

is currently

The Petitioner presented that
restrained in his liberty

by an unlawful arrest, unlawful indictment and unlawful
bail.
TCCP Art. 1.08 Habeas Corpus " The Writ of Habeas Corpus
is a Writ of RIGHT and SHALL never be suspended. "

Thus the

court was required to adjudicate the Petitioner's PreTrial Writ
of Habeas Corpus 11.08 PRIOR to any further actions.
The Petitioner would offer that neither the State nor

14

any court has jurisdiction to proceed against the Petitioner,
in ANY manner, until the Petitioner's PRETRIAL Writ of Hebeas
Corpus 11.08 was adjudicated.
In the Petitioner's Motion For ReHearing (apx p. A18-01)
of his PDR, the Petitioner provided significant circumstances
for the ReHearing by presenting;
" The Appellant filed
09/04/2015,' "

Writ of Habeas Corpus on

" The filing of the Writ of Habeas Corpus caused ALL actions
thereafter to be paused until the Writ of Habeas Corpus was
resolved. "

The TCCA ignored this.

The Petitioner would offer

that this presents as a " final judgement " by the TCCA which
this Court can and should review.

QUESTION 2

Withholding Of Certificate Of Death

In the affidavit for arrest warrant no. 15-033 (apx p.
A29-01) as sworn and subscribed by former Frisco Police Det.
Brian Tschudy on 02/24/2015, on page one (1), it is stated,
"

Affiant believes Anna was murdered (January 13,
2015). "

On page two (2) it is stated,
"

January 13, 2015,(the day that investigators
believe Anna Moses was murdered)."

The State procured an Indictment on 05/26/2015, presenting
that Anna Moses was murdered on 02/26/201 5 (apx p. A30-01 ) .
On 2/jSf3/201 6, the State amended the Indictment to present

15

that Anna Moses was murdered on 01/13/2015 (apx p. A31-01) .
The Autopsy Report ( apx p. A33-01) does NOT state when
Anna Moses was murdered.

How is it possible that the Coroner

made NO mention of when Anna Moses was Murdered?
Isn't the Autopsy, the basis for the Certificat of Death?
Anna Moses

I

Certificate of Death ( apx p A34-01 )which

was Certified by Collin County Coroner Dr. William B. Rohr,
states that

Anna Moses was Murdered on 01/14/2015.

At Trial, the State presented that Anna Moses was
Murdered on 01/13/2015 between

5:50-5:55 P.M.

Thus, every witness for the State who testified at trial
that Anna Moses was Murdered on 01/13/2015 between 5:50-5:55 PM,
was presenting testimony which the State KNEW to be FALSE and
acts of fraud on the court.
On 10/29/2015 (apx p A02-03) Petitioner file

Motion For

Discovery and Inspection Of Evidence in the 219th Judicial
District Court.

On 02/25/2016 (apx p. A02-09) the District

Court GRANTED Discovery and Ordered,
" Discovery of ALL Evidence favorable to the
Defendant under Brady and Kyles. "
The State was, therefore, ordered under TCCP Art. 39.14
to " disclose to the defendant ANY exculpatory, impeachment or
mitigating'document, item or information in the possession,
custody or control of the State that tends to negate the guilt
of the defendant.
The State withheld Anna Moses' Certificate of Death from

16

the JURY, Court and the Petitioner.
Brady v. Maryland 83 5. Ct. 1194 (1963),
" Suppression by prosecution of evidence
favorable to an accused upon request violates
Due Process uhere evidence is Material either
to guilt or punishment irrespective of good
faith or bad faith of prosecution. "
The Petitioner mould offer that the States unlawful with­
holding of the Certificate of Death from the Jury, Court and
the Petitioner was a Constitutional Violation of the Petitioner's
RIGHT to Substantive Due Process by the 14th Amendment.
Under TCCP Art. 38.32, the Certificate of Death legally
presents that " a presumption exits that death occured at the
time stated in the Certificate of Death. "
TCCP Art. 38.04 States,
"

The Jury, in ALL cases, is the exclusive
judge of the facts proved, and of the weight
to be given to the testimony, EXCEPT where
it is provided by law that proof of any
particular fact is to be taken as either
Conclusive or Presumptive Proof of the
existance of another fact. "

The Petitioner would offer that as under Art. 38.32, the
Certificate of Death IS Presumptive Proof and IS the Exception
stated in TCCP Art. 38.04 whereby the Jury and Court, would
have been LEGALLY compelled to accept that Anna Moses was
Murdered on 01/14/2015

NOT

01/13/2015.

The Jury, by law, upon the presentment of the Certificate
of Death, would have been compelled, by LAW, to reject ANY and
ALL testimony by Any and All witnesses of the State regarding

17

Anna Moses being Murdered on 01/13/2015 and thus compelled,
by law, to find the Petitioner, Not Guilty.

CONCLUSION

The Petitioner would offer that the word " justice " is
the singular most important

word in the U.S. Legal System.

The Petitioner would offer that ALL acts by any person,
Must Be in the " Interest Of Justice.
Those who would seek to act in any manner which does not
present as 11 in the interest of justice " violate, if not the
actual written Law, the intended Law and the very fabric of the
U.S. Legal System.
The Supreme Court of the United States is entrusted, by the
U.S. Constitution, with the duty and responsibility to ensure
that ALL acts are

" in the interest of justice. "

The Petitioner has presented to this Court that the
Petitioner's RIGHT to Due Process has been Violated numerous
times.

The State of Texas and Courts in Texas have provided

NO meritorious response.

This conflicts and/or ignores this

Court's " RULE OF LAW " as well as the TCCA's " Rule of Law."
The Petitioner urges this Court to accept that these
refusals by the TCCA are " final judgements " which this
Court can and should review.
The Petitioner offers that in his Petition for Writ Of

18

of Certiorari (apx p A35-01), Johnnie Corley asked this Court
to grant his Writ for the following:
--to resolve split decisions/conflicts
--Corley presented that there were, critically
important issue(s) on which all courts (all
states) should have a uniform stance,
--Corley also presented, issue(s) will NOT be
resolved without this Court's Intervention,
--Corley stated that his case presents and IDEAL
vehicle for resolution by this Court.
The Petitioner would offer that the questions presented
herein require this Court's review and granting a Writ Of
Certiorari for any or all of these same reasons.
This Court's decisions in

McNabb, Mallory and Corley

present, as a "rule of law " that a person who is denied presentment/magistration is thare after " unlawfully detained, "
with magistration being the ONLY remedy,

Neither the State nor

any Court, including the TCCA have made any meaningful attempt
to dispute this.
"

Absent the McNabb-Mallory RULE there was
NO apparent remedy for presentment delay. "

Corley v US
The Petitioner became " unlawfully detained " and is
TODAY, " UnLawfully Detained. "
"

Justice Frankfurter's point in McNabb is as
fresh as ever; the history of liberty has
largely been the history of observance of
procedural safeguards. " Corley v US

The Petitioner would urge this Court, by Writ of Certiorari

19

to present that absent Magistration and Probable Cause Deter­
mination, a person becomes 11 unlawfully detained " and any
actions, except magistration are " illegal and void.

"

This is necessary as a " procedural safeguard " for all persons
and to present a " uniform stance " for ALL persons.
The Petitioner presents that without such, a person can
be arrested in Texas or ANYWHERE in the U'.'S. and Indicted with
NO determination of Probable Cause..
This presents that Magistration and Probable Cause Deter­
mination are NO LONGER necessary anywhere in the U. S. .
The Petitioner has presented that the TCCA, it it's
decision in Ex parte Seidel, established the " rule of law "
whereby actions which are NOT " authorized by law " are
" Illegal and Void."

The State Court of Appeals has ignored

this " rule of law " in their response that the Petitioner needed
to file an 11.07.

The TCCA has refused to resolve these

conflicts with the TGCA's

" Rule Of Law. "

While actions by the State and Texas Courts, past the
failure to Magistrate did occur, ALL are without jurisdiction,
therefore " illegal and VOID " and DO NOT Legally Exist.
The Petitioner urges this Court to GRANT Certiorari
whereby all such actions WERE

" illegal and void " and the

Petitioner is TODAY , " UnLawfully Detained " and should
be immediately released.
The Petitioner urges this Court to GRANT Certiorari,

20

uhereby the act of Indictment during the time that the Petitioner
was DENIED his Constitutional Right to counsel mas without
jurisdiction.

Therefore, the Indictment and ALL subsequent

actions, were equally without jurisdiction and are equally
without jurisdiction and are equally " Illegal and Void. "
The Petitioner urges this Court to GRANT Certiorari whereby
the denial of the Petitioner's RIGHT to an Examining Trial
caused the State to lack jurisdiction to Indict the Petitioner
making the Indictment and all subsequent acts,
" illegal and void. "
The Petitioner filed a PreTrial Urit of Habeas Corpus 11.08
on 09/04/2015.

The District Court Knowingly and Intentionally

Refused to adjudicate the WRIT.
This refusal by the District Court is possibly the GREATEST
example of why a Writ of Habeas Corpus is so Vital and Necessary
and MUST be adjudicated.
The Petitioner's PreTrial Urit of Habeas Corpus 11.08
was a RUNNING OBJECTION which the District COurt and the State
were required to adjudicate before proceeding in any manner.
Ther Petitioner urges this Court to GRANT Certiorari whereby
the denial of the Petitioner's RIGHT to the adjudication of the
Petitioner's PRETRIAL URIT OF HABEAS CORPUS 11.08 caused the
State and Court to lack jurisdiction to take the Petitioner
to trial and ALL subsequent actions, " Illegal and Void. "

21

The Petitioner presente in Question 2 that the State
withheld the Certificate Of Death

which by it's admission

would have legally^ compelled the Jury to find the Petitioner
NOT GUILTY.

The Petitioner urges this Court to GRANT Certiorari

whereby the Petitioner should be rendered an ACQUITAL.
The Petitioner would offer that what may seem to be an
anomaly of an anomaly, presents that which this Court should
consider " in the interest of justice " for ALL persons.
The Law _is for all persons and MUST be for every person.

PRAYER

The Petitioner prays this Court, the Supreme Court of the
United States, to review this Petition and thereby GRANT a
Writ Of Certiorari for ANY or ALL of the questions presented.
Si4

The Petitioner prays that this Court determines that it's
intervention is necessary.

The Petitioner became

v

" UnLawfully Detained "
on February 28th, 2015 and there has been NO Remedy,

This Court

has ruled as such and NO Court or State has or can# dispute this.

22

